                    National Aeronautics and
                    Space Administration

                    Office of Inspector General
                    Washington, D.C. 20546-0001



Reply to Attn of:   W                                                                            March 23, 2004



                    TO:            M/Associate Administrator for Space Flight

                    FROM:          W/Assistant Inspector General for Auditing

                    SUBJECT:       Audit of Incentive/Award Fee Structure Under the Space Flight Operations
                                   Contract, Assignment Number A-04-02-00
                                   Report No. IG-04-014


                    We conducted an audit of the incentive/award fee structure under NASA’s Space Flight
                    Operations Contract (SFOC). The purpose of this audit was to determine whether the
                    incentive/award fee structure of the SFOC was conducive to safe Shuttle operations.
                    Enclosure 1 provides background for this audit activity, and Enclosure 2 provides details
                    on the objectives, scope, and methodology of the audit.

                    We are unable to reach a conclusion on whether the fee structure of the SFOC was
                    conducive to safe Shuttle operations. However, we make two observations (without
                    recommendations) relating to management of the SFOC award fee process that may be
                    relevant to future management of the SFOC award fee process. The observations concern:
                    (1) shifts in the Agency’s weighting of the “operational safety” and “quality” award fee
                    evaluation factors, and (2) changes in the communication of award fee evaluation criteria
                    to United Space Alliance (USA).

                    Shifts in the Award Fee Weighting for Operational Safety and Quality Evaluation Factors

                    We identified notable downward shifts in the award fee evaluation weightings for the
                    operational safety and quality evaluation factors during the periods prior to the Columbia
                    accident. Specifically, the combined weights for those criteria shifted from a high of
                    40 percent in period 1 through period 4, to 35 percent in period 5 through period 7, and then
                    to a low of 15 percent in period 8 through period 11, before increasing again to 35 percent in
                    period 12 (last award fee period prior to the Columbia Shuttle accident) through period 14.
                    Enclosure 3 illustrates the trends in the weighting of award fee evaluation criteria.

                    These weighting shifts appear to contradict the SFOC Fee Plan (Contract Attachment J-8),
                    which specifically emphasizes that operational safety is of supreme importance to NASA.
                    The weighting shifts also give the appearance that NASA de-emphasized the importance of
                    operational safety and quality in favor of other schedule and performance criteria. No
                                                                                             2

indication exists that the downward shift in operational safety and quality weights either
adversely impacted Shuttle safety or contributed to the Columbia accident.

Changes in the Communication of Award Fee Evaluation Criteria to USA

In the award fee process, areas of emphasis are intended to provide the contractor with an
understanding of specific performance areas upon which the contractor should focus
during a specific period. For award fee period 1 through period 7, NASA communicated
to USA specific areas of emphasis that corresponded to each evaluation factor (including
operational safety and quality). However, beginning with award fee period 8, the Agency
did not communicate the award fee factors as specifically as during the previous periods
(i.e., the Agency did not specify to which evaluation factor the cited areas of emphasis
corresponded). In addition, for period 8 through period 12, the Agency did not relate any
areas of emphasis directly to the operational safety and quality evaluation factors. Rather,
the areas of emphasis cited for those periods related primarily to management
effectiveness.

We found no evidence that either not communicating the areas of emphasis by evaluation
factor or an absence of specific areas of emphasis relating to operational safety and quality
criteria had an adverse impact on Shuttle safety. However, the Agency’s change in the
communication of award fee criteria and the lack of operational safety and quality-related
areas of emphasis could be misinterpreted to mean that the criteria are no longer as
important.

To provide timely feedback to the Agency, we previously briefed the Johnson Chief Counsel
and the cognizant Johnson Procurement Manager about these observations. If you have
questions, or would like to discuss these issues further, please contact me at (202) 358-2572.


[original signed by]

David M. Cushing

3 Enclosures:
1. Background
2. Award Fee Evaluation Factors
                                      Background

We conducted this audit because Volume V, Appendix G.9 of the Columbia Accident
Investigation Board (CAIB) Report, entitled, “Report to CAIB: Contracts, Incentives and
Safety/Technical Excellence,” presents an analysis of the Space Flight Operations Contract
(SFOC) and its fee structure and notes that, “NASA relies very extensively on contract
financial incentives to motivate major shuttle program contractors.” United Space Alliance’s
(USA) work affects the safety of NASA astronauts and the Space Shuttle orbiters, as well as
space hardware, personnel, and equipment. Also, the Board expresses in the report that
technical, organizational, and cultural changes within NASA are necessary before the
Agency can safely return to flight.

The SFOC is a cost-plus-incentive-fee/award-fee contract that supports the primary goals of
the NASA Space Flight Program. The goals of the contract are (in priority): (1) operational
safety, (2) mission success and safety, and (3) cost reduction. The fee plan includes a
combination of award fees, performance incentives, and cost incentives that are designed to
emphasize excellence in managerial performance, technical performance, schedule
performance, subcontract management, and cost performance while providing the contractor
appropriate motivation to achieve program goals. The award fee process occurs every
6 months with interim assessments at midpoint. In the first 12 award fee periods, 43 percent
of the total fees USA earned was attributable to award fee.

Federal Acquisition Regulation 16.401(a)(1) states “incentive contracts are designed to
obtain specific acquisition objectives by establishing reasonable and attainable targets
that are clearly communicated to the contractor.” In addition, NASA FAR
Supplement 1816.405-274(a) states “explicit evaluation factors shall be established for each
award fee period.” Finally, the NASA Award Fee Contracting Guide 2.3 states “criteria for
contract performance are included in the contract, and the contractor is then judged on how
well it performs in relation to those criteria.”




                                                                              Enclosure 1
                         Objectives, Scope, and Methodology

We performed audit fieldwork at Johnson and Headquarters from October 2003 through
February 2004. Our objective was to determine whether the incentive/award fee structure
under the orbiter prime contract (Space Flight Operations Contract) was conducive to safe
operations and administered in accordance with Federal and Agency regulations. Also, we
attempted to identify best and promising practices based on benchmarking with other
comparable contracts in support of other safety critical U.S. Government programs. To
accomplish our objective, we performed the following work:

   •   Obtained and reviewed the established criteria and determined that the operational
       safety is factored into the fee structure.

   •   Reviewed the award fee process and determined that NASA had followed the
       established process in the fee plan.

   •   Performed trend analysis for each fee category for period 1 through period 14.

   •   Interviewed Performance Evaluation Board members to gain insight on their
       perspective award fee process.

   •   Interviewed Contractor representatives to obtain their input to award and incentive
       fee processes.

   •   Performed correlation analysis between evaluation criteria, areas of emphasis,
       weights, and the Contractor’s self-assessments.

We reviewed how the fee structure of the SFOC was established and determined that the
contract was established in accordance with Federal and Agency regulations. For
benchmarking, we were unable to identify other Federal programs that used incentive/award
fee contracts to emphasize safety.

We conducted the audit in accordance with generally accepted government auditing
standards.




                                                                             Enclosure 2
                                                                                         Award Fee Evaluation Factors
                                                                                     Trend of Assigned Weights (in Percent)

                  Period 1 Period 2 Period 3                   Period 4 Period 5 Period 6 Period 7            Evaluation        Period 8 Period 9 Period 10 Period 11       Evaluation        Period 12 Period 13    Period 14
                                                Evaluation                                                     Factors                                                       Factors
  Evaluation      Oct 96 - Apr 97 - Oct 97 -     Factors       Apr 98 -   Oct 98 -    Apr 99 -   Oct 99 -     Added or          Apr 00 - Oct 00 -   Apr 01 -   Oct 01 -     Added or          Apr 02 -   Oct 02 -    Apr 03 -
   Factors        Mar 97 Sep 97 Mar 98         Consolidated     Sep 98    Mar 99       Sep 99    Mar 00      Consolidated        Sep 00 Mar 01       Sep 01    Mar 02      Consolidated        Sep 02    Mar 03       Sep 03
 Management                                                                                                   Management
                     25      25        25                         25         25          25         25
 Effectiveness                                                                                              Effectiveness and      5        25         25         25        Management
     Cost            5        5         5                         5          5           5          5              Cost                                                   Effectiveness and
                                                                                                                                                                             Subcontract         35         35          35
                                                                                                             Subcontract                                                  Management and
                                                                                                            Management and         30       20         20         20             Cost
                                                                                                             Performance


  Operational                                                                                                 Operational                                                   Operational
                     20      20        20                         20         20          20         20                                                                                           20         20          20
    Safety                                                                                                    Safety and           15       15         15         15          Safety
    Quality         20       20        20                         20         15          15         15         Quality                                                        Quality            15         15          15


   Schedule          5        5         5      Schedule and                                                   Schedule and
   Manifest                                      Manifest         10         10          10         10          Manifest
                     5        5         5      Effectiveness                                                                       5         5          5         5                              15         15          15
 Effectiveness                                                                                              Effectiveness and
 Supportability      5        5         5                         5          10          10         10           Support



                                                                                                            Kennedy Ground
                                                                                                                                   30       20         20         20
                                                                                                              Operations


SB/SDB/WOSB*        15       15        15                        15         15          15         15                             15        15         15        15                              15         15          15


    Total           100      100      100                        100        100         100        100                            100      100        100        100                            100        100         100


     Fee
                                                                                                                                                               Brock R.
Determination                                                   George W.S. Abbey                                                           Roy S. Estess                                     Michael C. Kostelnik
                                                                                                                                                                Stone
   Official
 Contracting
                                      Jeff Cullen                                                                                                Herb Baker
   Officer
                *Small/Small Disadvantaged/Woman Owned Small Business (SB/SDB/WOSB)



                                                                                                                                                                                                Enclosure 3
